                      CLOSEOUT OF M90110048


 On November 27, 1991 the program d
-program          in the Division of
 a copy of what a eared to be an
                        Thl, article
mfth.palnClpal           investigator on
 NIH sanctions in 1982 which might still be in effect. According
 to the newspaper story, these sanctions  A         apply for five
 years. In the event no proposal-    or change to an existing or
 future award involving                  occurred during the five




    -
 years, the sanctions w        w    t    o the first submission
 thereafter.
We checked with (1) the Office of Scientific Integrity; (2) the
compliance unit concerned with human subjects regulations in
Office of the Director, NIH; and (3) NIH's Division of Management
                                    all sanctions reported in the

There are currently no known problems or any sanctions in effect
related to misconduct in science, compliance with human subjects
regulations or compliance with NIH fiscal controls.      The NIH
recollection was that the sanctions had their intended effects
and                situation is back to normal.
As there is no NIH sanction in effect at this time, we are
closing this case for lack of substance.




January 22, 1991
